No,
In The
Supreme Court of the United States
Sergei Vinkov,
Petitioner,
v.
United States District Court for the Central
District of California,
Respondent
I, Kenneth Hastings, at the time of service, was over
18 years of age and not a party to this action. My
address of business is Hastings Legal Services LLC,
41715 Enterprise Cir. N. Suite 208, TEMECULA,
Riverside County, CA 92590, Phone 951-296-2669,
(https://www.hastingsls.com/), which is located in the
county where the service described below took place.
My electronic address is: ken@hastingsls.com.
I do swear or declare that 6n this date, August 4,
2021, as required by US Supreme Court Rule 29 I
have served the enclosed paper copies and an
electronic version of the documents:

f
i

i

i

i

(i) PETITION FOR A WRIT OF CERTIORARI (with
appendices);
(ii) CERTIFICATE OF COMPLIANCE;
(iii) PROOF OF SERVICE (not executed)
1

on parties' counsels, and on every other person
required to be served, by depositing an envelope
containing the above documents in the United States
Postal Service by first-class mail (including express
or priority mail), postage prepaid. The names and
addresses of those served are as follows:
(i) United States District Court for the Central
District
of
California,
Respondent
c/o Elizabeth Prelogar, Acting Solicitor General of
United States, and Merrick Garland, Attorney
General
of
States
the
United
Department of Justice, 950 Pennsylvania Avenue,
NW Washington, DC 20530-0001, Phone: 202-5142217, email: SupremeCtBriefs@USDOJ.gov
(ii) Brotherhood Mutual Insurance Company, an
Indiana corporation, a party of real interest
c/a attorneys Robert W Brockman, Jr; David
Berman, Brockman Quayle Bennett, 12481 High
Bluff Drive Suite 301, San Diego, CA 92130
Telephone: 858 788-3900, rbrockman@bqblaw.com,
dberman@bqblaw.com
(iii)
Presiding Judge Honorable
STANLEY
BLUMENFELD JR., First Street Courthouse, 350
W. 1st Street, Courtroom 6C, 6th Floor, Los Angeles,
California 90012, c/o Courtroom Clerk Victor Paul
Cruz victor_cruz@cacd.uscourts.gov
I declare under penalty of perjury that the foregoing
is true and correct. Executed on August 4, 2021
f

/ ./

TA

_Kenneth Hastings,
/

2

/

t
i

